Press release - 02/28/2012 - United States Intervenes in Suit Against American Commercial College Inc. Alleging False Claims Act Violations
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
U.S. Department of Justice
Office of Public Affairs
FOR IMMEDIATE RELEASE
Thursday, Febuary 28, 2012
United States Intervenes in Suit Against American   Commercial College Inc. Alleging False Claims Act Violations
The United   States has intervened in a whistleblower suit pending under the False Claims Act   against American Commercial College Inc. (ACC), a chain of for-profit colleges   located in west Texas.
The   government alleges that ACC falsely certified compliance with provisions of   federal law that prohibit a college or university from obtaining more than 90   percent of its yearly tuition from federal student aid provided through the U.S.   Department of Education.   Congress   enacted the “90/10 Rule” to ensure that educational institutions are able to   attract funding from outside sources.
“Colleges   and universities that receive federal funds must be honest with the government   and follow the law,” said Tony West, Assistant Attorney General of the Justice   Department’s Civil Division.   “We will   use the False Claims Act and other tools to protect students and taxpayers from   for-profit institutions that fail to measure up to that standard.”
The suit was   originally filed by Shawn Clark and Anthony Delgado, former ACC employees.   The False Claims Act allows for private   citizens to file whistleblower suits to provide the government information about   wrongdoing.   The government then has a   period of time to investigate and decide whether to take over the prosecution of   the allegations or decline to pursue them and allow the whistleblower to   proceed.   If the United States proves   that a defendant has knowingly submitted false claims, it is entitled to recover   three times the damage that resulted and a penalty of $5,500 to $11,000 per   claim.   When the government intervenes,   the whistleblower can collect a share of 15 to 25 percent of the United States’   recovery.   The government will file its   own complaint shortly.
“Misuses of the federal student aid system   must not be tolerated, for the sake of the taxpayers and of the innocent   individuals who are seeking a quality education,” Sarah R. Saldaña, the U.S.   Attorney for the Northern District of Texas, where ACC is located.
The suit   is United States ex rel. Clark et al. v. American Commercial Colleges,   Inc., Civil No. 5:10-CV-129-C (N.D. Tex.).
This matter   was investigated by the Department of Justice, Commercial Litigation Branch,   Civil Division; the U.S. Attorney’s Office for the Northern District of Texas;   and the Department of Education, Office of Inspector General.
The claims   contained in the complaint against ACC are merely allegations and do not   constitute a determination of liability
12-261
###
Printable view
Last Modified: 03/15/2012
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov